March 21, 2008

ALL AREA VICE PRESIDENTS

SUBJECT: Audit Report – Voyager Card Program
         (Report Number CA-AR-08-006)

This report presents the results of our audit of internal controls over the Voyager Card
Program (Project Number 06YG043CA005). The report responds to a request from the
Postmaster General to review the U.S. Postal Service’s Voyager Card Program and
summarizes the results of our Voyager Card internal control reviews at 10 Postal
Service sites. Our overall objective was to determine whether the Postal Service
implemented effective controls over the use of Voyager Cards. We will continue to
review Voyager Card purchases as part of our continuous financial auditing efforts and
as part of our financial installation audits. See Appendix A for additional information
about this audit.

Conclusion

At nine of the 10 sites visited,1 Postal Service officials did not implement effective
controls over the security and use of Voyager Cards. Specifically, we found that
officials did not always implement the Voyager Card controls prescribed in the Site Fleet
Card Guide for the United States Postal Service and the Voyager Handbook. We
identified multiple control weaknesses affecting the Postal Service’s Voyager Card
Program as discussed below. Nationally, in fiscal year (FY) 2007, the Web Enterprise
Information System (WebEIS) identified 220,344 transactions totaling $13.7 million as
non-reconciled transactions. These amounts are understated because we noted sites
that were marking transactions as reconciled when actual reconciliations had not been
performed. If transactions have not been properly reconciled, there is greater potential
for fraud, waste, and abuse. We will report the $13.7 million in non-reconciled
transactions as assets at risk in our Semiannual Report to Congress. See Appendix C
for calculation of assets at risk by Postal Service area.




1
  At the Denver Vehicle Maintenance Facility (VMF), Voyager Card internal controls were implemented and
responsible personnel followed prescribed guidance. In addition, the Denver VMF provided effective management
oversight and file maintenance of their Voyager Card Program.
Voyager Card Program                                                                                     CA-AR-08-006



Voyager Card Control Weaknesses

We identified control weaknesses in the following areas at the nine sites:

       •   Training
       •   Reconciliations
       •   Voyager Card security
       •   Personal identification number (PIN) security
       •   Missing receipts
       •   Segregation of duties
       •   Vehicle numbers
       •   File administration and record retention

These control weaknesses occurred primarily because responsible individuals did not
provide adequate oversight of their Voyager Card Program. While we did not identify
any fraudulent Voyager Card transactions,2 the Postal Service sites were at greater risk
of fraud, waste, and abuse because required internal controls for the Voyager Card
Program were not in place. See Appendix B for our detailed analysis of the issues.

We recommend the Area Vice Presidents:

1. Reiterate to district personnel the importance of complying with Voyager Card
   policies and procedures prescribed in the Site Fleet Card Guide for the United
   States Postal Service and the Voyager Handbook.

2. Direct district personnel to provide sufficient oversight of their Voyager Card
   Programs by:

       •   Ensuring all responsible personnel have completed the online Voyager Card
           training.

       •   Ensuring each applicable site properly performs Voyager Card reconciliations
           monthly and maintains documentation to support reconciliations shown as
           complete in the eFleet Card System.

       •   Ensuring all Voyager Cards, including Z Cards, are adequately secured.

       •   Maintaining current master personal identification number lists.

       •   Ensuring all master personal identification number lists are adequately secured.

       •   Ensuring personal identification numbers are kept private and secure.

2
    We did not identify fraudulent transactions; however, we were unable to locate receipts to support 77 transactions.




                                                             2
Voyager Card Program                                                                                CA-AR-08-006



      •    Ensuring receipts are available for all Voyager Card transactions. When a
           receipt is missing, contact the employee to determine why there is no receipt,
           investigate the transaction to ensure it is not fraudulent, document the results of
           the investigation, and maintain the information for 2 years.

      •    Ensuring all Voyager Card purchases made by reconciling officials are reconciled
           by an employee at the purchaser’s level or higher.

      •    Ensuring personnel annotate the vehicle number on all receipts and invoices.

      •    Maintaining complete and organized Voyager Card reconciliation files for 2 years.

      •    Performing periodic, unannounced site visits to ensure compliance with Voyager
           Card policies and procedures.

Management’s Comments

Management agreed with the findings and recommendations. The areas reiterated the
importance of complying with Voyager Card policies and procedures and directed
district personnel to provide sufficient oversight of their Voyager Card Programs.

Five areas concurred with the assets at risk; three did not comment on them; and the
Great Lakes Area stated that, based on historical experience, the amount of non-
reconciled transactions we are reporting as assets at risk is overstated. Management’s
comments are included in Appendix D.3

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and the corrective actions should
resolve the issues identified in the findings. We believe the 220,344 transactions
totaling $13.7 million were at an increased risk of loss due to inadequate internal
controls. Therefore, we believe these assets were at risk and will report them as such.
The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. All of the areas, except for the Great Lakes and Pacific
Areas, have already taken the necessary corrective actions. Consequently, the OIG
requests written confirmation when the Great Lakes and Pacific Areas’ corrective
actions are completed. These recommendations should not be closed in the follow-up
tracking system until the OIG provides written confirmation that the recommendations
can be closed.




3
    Management’s comments do not include their related attachments. We will provide these upon request.




                                                          3
Voyager Card Program                                                       CA-AR-08-006




We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, Director,
Supply Management, or me at (703) 248-2100.


 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Patrick R. Donahoe
    H. Glenn Walker
    William P. Galligan, Jr.
    Susan M. Brownell
    Jordan M. Small
    Katherine S. Banks




                                          4
Voyager Card Program                                                                               CA-AR-08-006



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Postal Service employees use the Voyager Card to pay for fuel, repairs, and
maintenance for Postal Service-owned vehicles. The government-wide General
Services Administration’s SmartPay Program administers Voyager Cards to simplify
payment for vehicle fuel and services. Since January 2000, the Postal Service’s
SmartPay contractor has been U.S. Bank Voyager Fleet Systems, Incorporated
(Voyager). The Postal Service has issued approximately 250,000 Voyager Cards
nationwide as of September 2006. During FY 2007, there were nearly 9.3 million
Voyager Card transactions totaling approximately $389.3 million.

Management assigns a Voyager Card to each Postal Service vehicle with the vehicle
number listed on the front of the card. Management also issues each vehicle operator
their own unique PIN, which they can use to authorize purchases on any Voyager Card.

Each facility with Postal Service-owned vehicles has a designated site manager. The
site manager is responsible for ensuring appropriate employees at the site have access
to the eFleet Card System (eFCS) and for taking Voyager Card training. Once a month,
the site manager or other designated individual is required to reconcile accounts online
in the eFCS. To reconcile accounts, receipts must be matched against the eFCS
invoice report. The site manager should print the invoice report from the eFCS, file it
with all supporting documentation, and maintain the paperwork for 2 years after the
online reconciliation is complete.

The Postal Service uses WebEIS as a management tool to identify sites that are
delinquent in performing Voyager Card reconciliations. WebEIS reports data from
eFCS 60 days after the close of the month. Transactions that are subsequently
reconciled continue to be shown as non-reconciled within WebEIS.

Management must investigate questionable transactions4 appearing in the eFCS invoice
report data. Site managers should contact the OIG or management if they suspect
fraud or misuse.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our overall audit objective was to determine whether the Postal Service implemented
effective controls over the use of Voyager Cards. Specifically, we determined whether
managers established appropriate card procedures, reviewed and reconciled accounts
monthly, and properly investigated and resolved questionable transactions. We also
determined the propriety of Voyager Card purchases.


4
  The eFCS identifies certain transactions as questionable. Examples of questionable transactions include premium
fuel purchases, food purchases, and fuel purchases exceeding tank capacity.




                                                        5
Voyager Card Program                                                                                CA-AR-08-006



To accomplish our objectives, we reviewed Postal Service Voyager Card policies and
procedures. We visited the following sites:

       1.  Xxxxxxxxxx, Xxxxxxxxxxxx Xxxxxxx Xxxxxx
       2.  Xxxxxxxxxx, Xxxxxxxxxxxx Xxxxx Xxxxxx Xxxxxx
       3.  Xxxxxx, Xxxxxxxx XXX
       4.  Xxxxxxxx, Xxxxxxxx Xxxx Xxxxxx
       5.  Xxxxxxx, Xxxxxxxxxx Xxxx Xxxxxx
       6.  Xxxxxxx, Xxxxxxxxxx Xxxx Xxxxxx
       7.  Xxxxxxxxxx, Xxxxxxxxx Xxxxx Xxxx Xxxxxxx
       8.  Xxxxx Xxxxx, Xxxxxxxxx Xxxxxxxx Xxxxxxx
       9.  Xxxxxxx, Xxxxxxx Xxx Xxxxx Xxxxxxx
       Xxxxxxx Xxxxx, Xxxxxxx Xxxx Xxxxxx Xxxxxxx

We judgmentally selected sites 1 and 2 above in coordination with Postal Service
officials. We based the site selections for the other eight sites on reconciliation data
obtained from WebEIS.5 Specifically, we judgmentally selected four sites that appeared
to be routinely performing timely Voyager Card reconciliations (sites 3 thru 6 above) and
four sites that appeared to be not routinely performing timely Voyager Card
reconciliations (sites 7 thru 10 above). During these site visits, we interviewed
managers and employees, observed and tested the security over Voyager Cards and
PINs, and reviewed supporting documentation for selected Voyager Card transactions.

We conducted this series of performance audits from November 2006 through
March 2008 in accordance with generally accepted government auditing standards and
included such tests of internal controls as we considered necessary under the
circumstances. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. We discussed our observations and conclusions with management officials
on February 15 and February 27, 2008, and included their comments where
appropriate. We relied on data obtained from the Postal Service’s eFCS and WebEIS.
We did not test the validity of controls over these systems. However, we did obtain
source documentation, which validated the data from the eFCS. WebEIS is a
management tool that pulls data from the eFCS at a point in time. Nothing came to our
attention that suggested the data we used was unreliable.




5
    The reconciliation data obtained was for accounting periods 1-6 (October – March) of FY 2007.




                                                           6
Voyager Card Program                                                   CA-AR-08-006




PRIOR AUDIT COVERAGE

                                    Report         Final Report
           Report Title             Number             Date
 Voyager Card Program –
 Xxxxxxx, Florida Xxx Xxxxx
 Station and Xxxxxxx Xxxxx,
 Florida Main Office Station      CA-AR-08-005   February 29, 2008
 Voyager Card Program –
 Xxxxxxxxxx, Louisiana Xxxxx
 Xxxx Station and Xxxxx Xxxxx,
 Louisiana Downtown Station       CA-AR-08-004   December 31, 2007
 Voyager Card Program –
 Xxxxxxx and Xxxxxxx,
 California Post Offices          CA-AR-08-003   November 16, 2007
 Voyager Card Program –
 Xxxxxx, Colorado Vehicle
 Maintenance Facility and
 Xxxxxxxx, Colorado Post Office   CA-AR-08-001    October 19, 2007
 Voyager Card Program –
 Xxxxxxx and Xxxxx Xxxxxx
 Branches of the Harrisburg,
 Pennsylvania Post Office         CA-AR-07-006      July 9, 2007

The reports detail weaknesses which are described in Appendix B. Management
agreed with our findings and recommendations in each report.




                                             7
Voyager Card Program                                                                                 CA-AR-08-006



                           APPENDIX B: DETAILED ANALYSIS OF
                          VOYAGER CARD CONTROL WEAKNESSES

Training

At five of the 10 sites, individuals responsible for performing the monthly Voyager Card
reconciliations had not taken the required Voyager Card training. Postal Service policy6
states that any individual responsible for reconciling Voyager Card activities must take
the training. This condition occurred because individuals were not aware of the training
requirement.

Reconciliations

At six of the 10 sites, Postal Service officials did not routinely perform reconciliations. In
addition, some sites performed reconciliations without all required receipts or invoices.
Postal Service policy7 states that, at least monthly, the site manager or other
responsible party will reconcile accounts online, print the account summary (or invoice
report), and file it with all receipts and invoices for 2 years. Postal Service officials did
not routinely perform or inadequately performed reconciliations for the following
reasons:

    •   High employee turnover.

    •   Insufficient time and/or conflicting job responsibilities.

    •   No staff to whom to delegate the responsibility.

    •   Insufficient program oversight.

Voyager Card Security

At four of the 10 sites, Postal Service officials did not adequately secure Voyager Cards.
Cards were left in unattended vehicles and in other locations with unrestricted access,
which was readily accessible by employees. Postal Service policy states8 that site
managers are responsible for securing the cards. It also states that cards should not be
left in unattended vehicles or in locations with unrestricted access. This condition
occurred primarily because of insufficient management oversight.




6
  Site Fleet Card Guide, April 2004, Section 1.4, Training and Accountability Certification.
7
  Voyager Handbook, Overview, January 2000.
8
  Site Fleet Card Guide, Section 1.3, Site Manager; and Voyager Handbook, Vehicle Cards, Security.




                                                        7
Voyager Card Program                                                                                    CA-AR-08-006



Additionally, at five of the 10 sites, Postal Service officials did not adequately secure
their site’s Z Card.9 Specifically, at three of the sites the Z Card was stored in the
reconciling official’s unlocked desk drawer, which was accessible by employees. At
another site, the Z Card was stored in a locked room; however, cleaning staff had a key
to the room. At the last site, the vehicle operations maintenance assistant kept the
Z Card in his wallet and would take the card home with him every day. Postal Service
policy10 states that site managers are responsible for securing the cards. It also states
that cards should not be left in locations with unrestricted access and are never to be
carried by off-duty personnel. This condition occurred primarily because:

    •    Personnel were unaware of the requirement to secure the Z Card.

    •    The reconciling official believed the Z Card did not need to be secured since the
         other employees did not know the card existed or where the card was stored.

    •    Management oversight was insufficient.

PIN Security

At nine of the 10 sites, Postal Service officials did not maintain a current master PIN list.
Specifically, 102 of 1,059 individuals on the lists had active PINs, but were no longer
Postal Service employees or were no longer assigned to the site. In addition,
management assigned two PINs each to 12 individuals and one PIN to a vendor.
Postal Service policy11 states that site managers must notify Voyager when an
employee is no longer assigned to their site or when an employee needs to be added to
the roster. It also states that if an employee leaves the Postal Service, management
must notify Voyager to cancel the employee’s PIN. This condition occurred primarily
because Postal Service officials did not closely monitor the master PIN lists due to time
constraints and other duties that took priority.

Additionally, at two of the 10 sites, Postal Service officials did not adequately secure
their master PIN list. At one site, the reconciling official stored the master PIN list in a
desk drawer where access was not limited. At the other site, the station manager
maintained the master PIN list on a shared network drive where access was also not
limited. Postal Service policy12 states the site manager is responsible for the security of
the site’s PIN list. This condition occurred because Postal Service officials were
unaware of the requirement to maintain the master PIN list in a secure location or did
not realize the shared drive was an inappropriate place to store the master PIN list.


9
  Management issues Z Cards to the finance number of the site; these cards are used to pay for washing numerous
vehicles at the same time and to temporarily pay for fuel or repairs for vehicles with lost, stolen, or damaged Voyager
Cards.
10
   Site Fleet Card Guide, Section 1.3, Site Manager; and Voyager Handbook, Vehicle Cards, Security.
11
   Voyager Handbook, Personal Identification Numbers Section, Security.
12
   Voyager Handbook, Personal Identification Numbers Section, Overview.




                                                           8
Voyager Card Program                                                                               CA-AR-08-006



Furthermore, at four of the 10 sites, employees did not keep PINs private and secure.
For example, at the four sites we examined 151 Voyager Cards and identified 13 PINs
that were either written on the back of a Voyager Card or written on a piece of paper
and stored with a Voyager Card. Postal Service policy13 states that employees must
keep PIN information separate from the cards. PIN information is personal and
confidential and personnel should keep their PINs private and secure. This situation
occurred because mail carriers said they had difficulty remembering their PINs and did
not know it was against policy to write their PINs down and store them with a Voyager
Card.

Missing Receipts

At eight of the 10 sites, Postal Service officials did not always maintain receipts for
Voyager Card purchases. Specifically, receipts were missing for 77 of the 408
transactions we reviewed. These transactions with missing receipts were valued at
$6,105. Postal Service policy14 states a receipt or invoice must accompany every card
purchase. When a receipt or invoice is missing, the site manager must contact the
employee to determine why there is no receipt, investigate the transaction to ensure it is
not fraudulent, document the results of the investigation, and maintain the information
for 2 years. This condition occurred primarily because reconciliations were not
completed; therefore, reconciling officials were not aware that receipts were missing. In
addition, files were not well organized and, as a result, receipts were likely misplaced or
lost.

Segregation of Duties

At three of the 10 sites, segregation of duties control weaknesses existed. Specifically,
at two sites, the reconciling officials reconciled 41 of their own purchases
totaling $7,244. At another site, there was only one person with eFCS access to
perform reconciliations. If reconciliations had been performed at this site, the
reconciling official would have reconciled her own purchases. This condition occurred
because Postal Service policy does not require a higher authority to review or reconcile
the Voyager Card purchases of individuals. However, the Government Accountability
Office’s (GAO) Standards for Internal Control in the Federal Government, dated
November 1999, states that management should segregate the responsibility for
authorizing and reviewing transactions among different employees. The GAO standard
also states that when one individual controls all aspects of a transaction, the risk of
fraud or error increases.




13
     Voyager Handbook, Personal Identification Numbers Section, Security.
14
     Voyager Handbook, Overview; and Site Fleet Card Guide, Section 4.1, Reconciliation Process.




                                                          9
Voyager Card Program                                                           CA-AR-08-006




Vehicle Numbers

At six of the 10 sites, employees did not always write the vehicle number on receipts.
Postal Service policy15 requires the vehicle number to be written on all receipts and
invoices for tracking purposes. This condition occurred because reconciling officials:

     •   Had other duties that took priority.

     •   Were unaware of the requirement.

     •   Were not aware of the condition because they were not routinely performing
         reconciliations.

File Administration and Record Retention

At nine of the 10 sites, file administration and record retention were inadequate. Files at
one location, for example, were stored in boxes on the floor. (See Exhibit 1 below.)
Other sites stored receipts and invoices in manila envelopes or boxes, most of which
were in no particular order. In addition, the eFCS report was not printed and maintained
with the supporting documentation as required. Postal Service policy16 recommends
management use an accordion-style file folder that can accommodate all receipts and
invoices for an entire month. The file can be arranged by vehicle number or day of the
month. Each month, management should gather the receipts and place them in a
suitable file folder for the 2-year retention period. Postal Service policy17 also requires
the responsible party to reconcile accounts online at least monthly, print the account
summary (invoice report), and file it with all receipts and invoices for 2 years. This
situation occurred because reconciling officials did not always routinely perform
reconciliations or were not aware of the requirement to print and retain the reconciliation
reports for 2 years. In addition, personnel turnover, other duties taking priority and, at
one location, Hurricane Katrina contributed to inadequate file administration and record
retention.




15
   Voyager Handbook, Overview.
16
   Voyager Handbook, Keeping Record.
17
   Voyager Handbook, Overview.




                                                10
Voyager Card Program                               CA-AR-08-006




Exhibit 1. Voyager Card file system at one site.




                                        11
Voyager Card Program                                                                                                            CA-AR-08-006



Exhibit 2. Summarization of weaknesses noted by site.

                                                          Xxxxxx,                                                     Xxxxx                     Xxxxxxx
                            Xxxxxxxxxx,   Xxxxxxxxxx,    Xxxxxxxx    Xxxxxxxx,   Xxxxxxx,   Xxxxxxx,   Xxxxxxxxx,     Xxxxx,      Xxxxxxx,       Xxxxx,
                            Xxxxxxxxxxx   Xxxxxxxxxxx    Xxxxxxx     Xxxxxxxx    Xxxxxxxx   Xxxxxxxx   Xxxxxxxxx    Xxxxxxxxx     Xxxxxxx        Xxxxxx
                              Xxxxxxx     Xxxx Xxxxxx   Xxxxxxxxxx     Xxxx        Xxxx       Xxxx     Xxxxx Xxx    Xxxxxxxx      Xxx Xxxx     Xxxx Xxxxx
                              Xxxxxx        Xxxxxx       Xxxxxxxx     Xxxxxx      xxxxxx     Xxxxxx     Xxxxxxx      Xxxxxxx      Xxxxxxx       Xxxxxxx
        Weakness
The individual
responsible for
reconciling Voyager
                                X             X                         X                                  X                                       X
Card transactions at the
site did not take the
required training.
The site did not always
perform or properly
                                                                                    X          X           X           X             X             X
perform Voyager Card
reconciliations.
The site did not
adequately secure               X             X                         X                                  X
Voyager Cards.
The site did not
adequately secure Z                           X                         X           X          X                                                   X
Cards.
The site did not
maintain a current              X             X                         X           X          X           X           X             X             X
master PIN list.
The site did not
adequately secure the                         X                         X
master PIN list.
The site did not keep
PINs private and                X             X                         X                                                            X
secure.
The site did not always
maintain receipts for
                                X             X                                     X          X           X           X             X             X
Voyager Card
purchases.
The site did not
segregate the
                                                                        X           X                      X
reconciling function from
the purchasing function.
The site did not always
write the vehicle number        X             X                                     X          X           X           X
on receipts.
The site did not
maintain organized
Voyager Card files              X             X                         X           X          X           X           X             X             X
and/or records were
missing.



                                                                            12
Voyager Card Program                                                 CA-AR-08-006



                APPENDIX C: CALCULATION OF ASSETS AT RISK –
                   FY 2007 NON-RECONCILED TRANSACTIONS

                                         Number of
                           Area         Transactions    Amount
                        Capital Metro          5,726     $194,448
                          Eastern              3,186       174,233
                        Great Lakes           46,178     2,678,018
                       New York Metro         35,105     2,420,666
                         Northeast             7,704       326,684
                          Pacific             49,101     3,047,144
                         Southeast            15,302     2,322,817
                         Southwest            58,305     2,563,164
                          Western                  7         2,028
                           Totals            220,344   $13,729,202




                                           13
Voyager Card Program                                 CA-AR-08-006



                 APPENDIX D: MANAGEMENT’S COMMENTS




                                14
Voyager Card Program        CA-AR-08-006




                       15
Voyager Card Program        CA-AR-08-006




                       16
Voyager Card Program        CA-AR-08-006




                       17
Voyager Card Program        CA-AR-08-006




                       18
Voyager Card Program        CA-AR-08-006




                       19
Voyager Card Program        CA-AR-08-006




                       20
Voyager Card Program        CA-AR-08-006




                       21
Voyager Card Program        CA-AR-08-006




                       22
Voyager Card Program        CA-AR-08-006




                       23
Voyager Card Program        CA-AR-08-006




                       24
Voyager Card Program        CA-AR-08-006




                       25
Voyager Card Program        CA-AR-08-006




                       26
Voyager Card Program        CA-AR-08-006




                       27
Voyager Card Program        CA-AR-08-006




                       28
Voyager Card Program        CA-AR-08-006




                       29
Voyager Card Program        CA-AR-08-006




                       30
Voyager Card Program        CA-AR-08-006




                       31
